<html>
<title> - [H.A.S.C. No. 115-52] Fiscal Year 2018 Priorities and Posture Of Missile Defeat Programs and Activities</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                              
                          [H.A.S.C. No. 115-52]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    FISCAL YEAR 2018 PRIORITIES AND

           POSTURE OF MISSILE DEFEAT PROGRAMS AND ACTIVITIES

                               __________

                              HEARING HELD
                              JUNE 7, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-737                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>   


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona, Vice Chair    JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               SUSAN A. DAVIS, California
DUNCAN HUNTER, California            RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            BETO O'ROURKE, Texas
MICHAEL R. TURNER, Ohio              DONALD NORCROSS, New Jersey
MIKE COFFMAN, Colorado               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               RO KHANNA, California
SAM GRAVES, Missouri
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Dickinson, LTG James H., USA, Commander, Joint Functional 
  Component Command for Integrated Missile Defense, and 
  Commander, U.S. Army Space and Missile Defense Command/Army 
  Strategic Forces Command.......................................     4
Harvey, Thomas H. (Todd), Acting Assistant Secretary of Defense 
  for Strategy, Plans, and Capabilities, Department of Defense...     2
Pike, Barry J., Program Executive Officer, Army Missiles and 
  Space..........................................................     6
Syring, VADM James D., USN, Director, Missile Defense Agency.....     3

                               
                               
                               APPENDIX

Prepared Statements:

    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces...................    29
    Dickinson, LTG James H.......................................    73
    Harvey, Thomas H.............................................    30
    Pike, Barry J................................................    98
    Rogers, Hon. Mike............................................    27
    Syring, VADM James D.........................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted during the hearing.]
    
    
FISCAL YEAR 2018 PRIORITIES AND POSTURE OF MISSILE DEFEAT PROGRAMS AND 
                               ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Wednesday, June 7, 2017.
    The subcommittee met, pursuant to call, at 2:57 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I want to welcome everybody to 
our hearing this afternoon: ``Fiscal Year 2018 Priorities and 
Posture of Missile Defeat Programs and Activities.''
    We have an esteemed group of witnesses with us today: Mr. 
Todd Harvey, Acting Assistant Secretary of Defense for 
Strategy, Plans, and Capabilities; Vice Admiral James Syring, 
U.S. Navy, Director of Missile Defense Agency; Lieutenant 
General James Dickinson, Commander, Joint Functional Component 
Command for Integrated Missile Defense, and Commander of U.S. 
Army Space and Missile Defense Command/Army Strategic Forces 
Command; and Mr. Barry Pike, who has the best accent on the 
panel, is Program Executive Officer, Army Missiles and Space.
    And before I get started, I want to take the chairman's 
prerogative for a minute. For almost 37 years, Vice Admiral 
Syring has served his country in uniform. Members of the 
subcommittee are most familiar with him as director of the 
Missile Defense Agency [MDA], which he has led since November 
of 2012.
    I remember the problems with the prior leadership of MDA 
and the devastating impact on its morale back in 2012. That has 
all changed under Admiral Syring's leadership. I think there is 
no better testament to his service and leadership than the 
recent Ground-Based Midcourse Defense system test against an 
ICBM [intercontinental ballistic missile] class target.
    With everything that is going on in the world, this success 
sends a powerful and unmistakable signal to allies and 
adversaries alike that we will defend ourselves from ballistic 
missile attack and the threat of attack.
    Admiral Syring, we thank you for your service and very much 
hope it is not complete yet.
    Admiral Syring. Thank you, sir.
    Mr. Rogers. With that, because we were called for votes, we 
are on a shorter timeline, so I am going to dispense with my 
opening statement and yield to my friend and colleague from 
Tennessee for any opening statement that he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 27.]
    Mr. Cooper. Thank you, Mr. Chairman.
    I would like to add my praise for Admiral Syring, for his 
wonderful career so far in the military. We hope it continues.
    But I also want to ask unanimous consent to put my 
statement into the record so that we can get on with the 
hearing.
    Mr. Rogers. Without objection, so ordered.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 29.]
    Mr. Rogers. All right. What I would ask, so we will have 
time for questions and then also time to go into the classified 
session, is ask each witness to try to summarize their 
statement in 3 or 4 minutes, if they could. The full statement 
will be admitted to the record without objection.
    First, we will start with Mr. Todd Harvey. You are 
recognized for summary of your testimony.

    STATEMENT OF THOMAS H. (TODD) HARVEY, ACTING ASSISTANT 
  SECRETARY OF DEFENSE FOR STRATEGY, PLANS, AND CAPABILITIES, 
                     DEPARTMENT OF DEFENSE

    Mr. Harvey. Thank you, sir.
    Chairman Rogers, Ranking Member Cooper, members of the 
subcommittee, thank you for the opportunity to testify on 
priorities and posture of missile defeat programs and 
activities and the Defense Department's continuing efforts to 
sustain and modernize our homeland missile defense capabilities 
so that we remain ahead of the threat while providing 
effective, integrated, interoperable regional missile defense 
capability.
    The U.S. homeland is currently protected by the Ground-
Based Midcourse Defense system, GMD system. Improving the 
capacity, reliability, effectiveness of the GMD system is one 
of our highest priorities.
    The President's budget proposal for fiscal year 2018 would 
fund the Redesigned Kill Vehicle, Long Range Discrimination 
Radar, would help lay the groundwork for a new radar in Hawaii, 
would continue funding advanced discrimination sensor 
technology and space-based kill assessment programs, remain on 
track to complete deployment of remaining intercepters in 
Alaska by the end of this year to bring the total to 44.
    We are also moving forward with efforts to bolster our 
defenses against advanced cruise missiles. From a regional 
standpoint, the President's fiscal year 2018 budget request 
also continues the deployment of missile defenses tailored to 
threats in Europe, Middle East, Asia-Pacific region.
    In Europe, we are continuing to implement the European 
Phased Adaptive Approach, EPAA, and working in close 
collaboration with our NATO [North Atlantic Treaty 
Organization] allies to develop advanced network of sensors and 
interceptors.
    The President's budget request also supports the Aegis 
Ashore system that we will deploy in Poland in the 2018 
timeframe. NATO allies have committed to spend more than $1 
billion on NATO ballistic missile defense command and control, 
and many of our allies are improving their national BMD 
[ballistic missile defense] capabilities.
    In Asia-Pacific, our force posture includes Aegis BMD-
capable ships, along with Patriot batteries deployed in Japan 
and South Korea, and the recent deployment of THAAD [Terminal 
High Altitude Area Defense] to South Korea. We have also 
converted the THAAD battery deployment to Guam to permanent 
status in response to North Korean threats.
    We also maintain robust ballistic missile defense presence 
in the Middle East, including land- and sea-based assets 
deployed in defense of our forward-located forces and those of 
our allies and partners. This is in addition to our efforts to 
build the capacity to those counterparts that will contribute 
to their ability to defend themselves.
    We must continue to look ahead, which means ensuring that 
our investment strategy and priorities balance the needs of 
addressing the most dangerous threats we confront today while 
positioning ourselves to respond to emerging threats over the 
next decade.
    On January 27 of this year, the President directed the 
Secretary of Defense to initiate a new Ballistic Missile 
Defense Review [BMDR] to identify measures to strengthen 
missile defense capabilities in the face of rapidly growing 
missile threats.
    The BMDR will be informed by the administration 
determination to develop a state-of-the-art missile defense 
system to defend the homeland and our regional interests. We 
expect to complete the BMDR this fall, and it will complement 
the missile defeat report mandated by the fiscal year 2017 NDAA 
[National Defense Authorization Act].
    The Department of Defense continues to develop, procure, 
and field missile defense systems to protect vital U.S. 
national security interests. We are determined to stay ahead of 
the adversaries' ballistic and cruise missile developments, 
seek capabilities to lower cost per intercept, and defeat 
emerging ballistic and cruise missile threats.
    Thank you for the opportunity to appear before you today. 
Look forward to your questions.
    [The prepared statement of Mr. Harvey can be found in the 
Appendix on page 30.]
    Mr. Rogers. I thank you.
    The Chair now recognizes Admiral Syring.

   STATEMENT OF VADM JAMES D. SYRING, USN, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    Admiral Syring. Mr. Chairman, Ranking Member Cooper, thank 
you for the opportunity to appear today. Sir, I will submit my 
written statement for the record. In lieu of an opening 
statement, I request permission to play the video from the test 
last week.
    Mr. Rogers. We would love to see that.
    [The video referred to is retained in the subcommittee 
files and can be viewed upon request.]
    Admiral Syring. And I will narrate as this goes, sir, since 
it is un-narrated, and give the committee an idea of what was 
accomplished last week.
    The test was conducted on the 30th of May out in the 
Pacific. Here is a blue-water chart that depicts the test 
construct. The ground-based interceptor [GBI] was fired from 
Vandenberg Air Force Base. It was tracked by a TPY-2 on Wake 
Island and the SBX [Sea-based X-band Radar] in the northwest 
Pacific, giving the interceptor solution to Vandenberg to 
intercept a target launched from the Kwajalein Atoll in the 
Marshall Islands.
    The red indicates the target fly-out, and the green 
indicates the GBI from Vandenberg.
    Here is a picture from the target lifting off from the 
Kwajalein Atoll in the Marshall Islands, 5,000 miles away from 
the coast of California. This is the longest range target that 
we have ever flown, the highest altitude, and the highest 
closing velocity for an intercept, and this intercept was done 
with countermeasures.
    Next, you will see a picture of the ground-based 
interceptor launch from Vandenberg Air Force Base out of a test 
silo that is completely production representative of the actual 
silos at Vandenberg, but this is what we test out of. The GBI 
is production representative of the CE-II Block 1s that will be 
fielded to fill out the 44 GBIs by the end of this calendar 
year.
    What you will see next is an onboard sensor view of the 
kill vehicle, which is separated from the GBI, and what the 
kill vehicle saw in space. This is actual live data from the 
test.
    What you see in red is the warhead from the target. And 
what you see in green is its tank that is flying alongside, 
because in space, everything flies at the same velocity. And 
you see the kill vehicle focused on the red warhead and 
eventually dropping out the other debris in the scene.
    What you see next is the kill vehicle in acquisition and 
terminal, and that is an actual picture of the reentry vehicle 
that was destructed beyond recognition.
    What you will see here is another infrared picture of the 
target booster and the target warhead with the booster of the 
GBI flying by literally a second before the kill vehicle killed 
the target warhead.
    We had four or five different sensors strewn across the 
Pacific to validate what you just saw. That was not a 
simulation. That was actual live data played back from the 
test.
    With that, sir, I stand ready for your questions.
    [The prepared statement of Admiral Syring can be found in 
the Appendix on page 43.]
    Mr. Rogers. Outstanding. Thank you very much.
    Lieutenant General Dickinson, you are recognized.

  STATEMENT OF LTG JAMES H. DICKINSON, USA, COMMANDER, JOINT 
 FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE DEFENSE, 
AND COMMANDER, U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/ARMY 
                    STRATEGIC FORCES COMMAND

    General Dickinson. Chairman Rogers, Ranking Member Cooper, 
and other distinguished members of the subcommittee, thank you 
for your continued support of our soldiers, civilians, and 
their families.
    This is my initial appearance before this subcommittee, and 
it is, indeed, an honor to testify before you today to discuss 
the importance of missile defense to our Nation, and the need 
to maintain these capabilities in the face of a threat, as we 
all know, that continues to grow in both capacity and 
capability.
    Today, I want to briefly summarize the missions of the 
organizations I represent. First, Space and Missile Defense 
Command or SMDC, Army Forces Strategic Command, ARSTRAT, which 
serve as a force provider in support of our combatant 
commanders.
    Our six lines of effort are to, number one, protect the 
homeland; provide combat-ready space and missile defense 
professionals; plan, synchronize, and integrate global 
operations; produce or adopt leap-ahead concepts and 
technologies; preserve and account for the Nation's critical 
resources; and promote and foster a positive command climate.
    Our six lines of effort apply not only to the missile 
defense, but also to Army space. The Army has more than 4,000 
military and civilian space cadre that provide continuous 
space-based capabilities and support to the warfighter from 22 
different locations and 11 different time zones around the 
world.
    Within SMDC ARSTRAT, our future warfare center and 
technical center develops space and missile defense concepts, 
requirements, and doctrine; provide training to the Army space 
cadre, and missile defense operators; and executes space and 
missile defense research and development.
    I also represent the Joint Force Component Command for 
Integrated Missile Defense, or JFCC IMD, which supports U.S. 
Strategic Command [STRATCOM) in integrating and synchronizing 
our global missile defense operations.
    For example, today, we have approximately 300 full-time 
National Guard soldiers located in Colorado Springs, Colorado; 
Fort Greely, Alaska; and Vandenberg Air Force Base, California, 
who operate the ground-based missile defense system.
    It represents the Nation's only defense against 
intercontinental ballistic missile attack. These trained and 
fully certified missile defense professionals execute a 
strategically important mission 24 hours a day, 7 days a week, 
365 days a year. They refer to themselves as 300 soldiers 
protecting the 300 million.
    Additionally, in support of U.S. STRATCOM, JFCC IMD 
executes the following key tasks: Synchronizing operational 
level planning; supporting ongoing operations; integrating 
training exercises; test activities globally; providing 
recommendations on the allocation of low-density, high-demand 
missile defense resources; and advocating for future 
capabilities.
    As reported, the missile threat continues to grow, both in 
terms of numbers and sophistication. We as a Nation must 
maintain our current readiness posture and continue to increase 
our capabilities to address future threats.
    Finally, I would like to highlight, the challenges we face 
today cannot be addressed without the dedication of our 
greatest asset: our people. Service members, civilians, 
contractors, and their families, those stationed at home, as 
well as those globally deployed provide support to the Army and 
joint warfighter each and every day.
    We remain committed to providing trained and ready 
soldiers, civilians to operate and pursue advancements in space 
and missile defense capabilities for the Nation. This 
committee's continued support of missile defense operations and 
the men and women who develop and deploy our systems is 
essential.
    Again, I appreciate the opportunity to discuss our Nation's 
missile defense capabilities, and I look forward to addressing 
your questions. Thank you.
    [The prepared statement of General Dickinson can be found 
in the Appendix on page 73.]
    Mr. Rogers. Thank you.
    Mr. Pike, you are recognized.

  STATEMENT OF BARRY J. PIKE, PROGRAM EXECUTIVE OFFICER, ARMY 
                       MISSILES AND SPACE

    Mr. Pike. Thank you, sir.
    Chairman Rogers, Ranking Member Cooper, and distinguished 
members of the subcommittee, I am honored to appear before you 
to testify on missile defense, and to thank you for your 
continued support of our people and our mission at Program 
Executive Office for Missiles and Space.
    Support to our warfighters and their readiness remains our 
number one priority. I lead the materiel development, 
production, fielding, and sustainment support for assigned 
missile and space systems for the Army. This includes the 
centralized management of Army Air and Missile Defense, long-
range precision fires, close combat, and aviation missile 
systems, as well as designated space programs.
    In today's complex, dynamic, and volatile security 
environment, Army Air and Missile Defense is a key strategic 
enabler. As such, our focus continues to be on providing 
warfighting solutions to the Army combatant commands and their 
national partners across the operational spectrum.
    We accomplish this by working closely with other military 
departments, the Missile Defense Agency, the Army Space and 
Missile Defense Command, to support joint integrated air and 
missile defense capabilities.
    Mr. Chairman, Ranking Member Cooper, and members of the 
subcommittee, I look forward to addressing your questions.
    [The prepared statement of Mr. Pike can be found in the 
Appendix on page 98.]
    Mr. Rogers. I thank all the witnesses for their statements, 
and I will recognize myself first for questions.
    Admiral Syring, we have seen at least 78 ballistic missile 
tests by North Korea since Kim Jong-un came to power. More than 
60 of these are assessed to be successes. It appears that he 
has had success with solid fuel ballistic missiles, including 
those launched by submarines and on the ground, and he may have 
recently shown that he can build a reentry vehicle and it can 
survive reentry.
    In an unclassified setting, I have to ask: Does this budget 
request allow us to remain paced comfortably ahead of the 
threat; and secondly, if we fully fund your request, and it 
remains at the same level of funding, less than $8 billion a 
year, of which increasing amounts are procurement and O&M 
[operations and maintenance], not research and development, 
will we continue to stay ahead of the threat, or is it moving 
faster than we are?
    Admiral Syring. Sir, with the work of this committee and 
others and the support of Congress, I would not say we are 
comfortably ahead of the threat. I would say we are addressing 
the threat that we know today. And the advancements in the last 
6 months have caused great concern to me and others in the 
advancement of and demonstration of technology of ballistic 
missiles from North Korea.
    It is incumbent upon us to assume that North Korea today 
can range the United States with an ICBM carrying a nuclear 
warhead. Everything that we are doing plans for that 
contingency, and in addition to looking ahead to what might be 
developed and what is possible over the next 5 to 10 years.
    Mr. Rogers. In an open setting, to the extent that you can, 
would you characterize what North Korea has been doing for the 
last 6 months?
    Admiral Syring. They have been not only testing at an 
alarming rate in violation of international law, but 
demonstrating technology that feeds development of longer-range 
missiles and more capable missiles as well.
    Mr. Rogers. Can you discuss your timeline for developing 
and deploying the LRDR [Long Range Discrimination Radar]. How 
long will the MDA take to do that and from requirement 
finalization to deployment?
    Admiral Syring. From the specific requirement of when LRDR 
was developed, it was back in 2014, and we were under contract 
in late 2015, if I get the timeline correct. And we will IOC 
[initial operating capability] it to the warfighter in late 
2020.
    Mr. Rogers. Okay. With that, I will yield to the ranking 
member for his opening questions.
    Mr. Cooper. Thank you, Mr. Chairman.
    In view of the lateness of the hearing and the large number 
of subcommittee members who are here, I would defer my 
questions for the classified portion of the hearing.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And, Admiral Syring, everybody said it, but I just hope you 
know my name is on the list of those who honor and revere your 
commitment to this country and your service.
    Admiral Syring. It is my honor.
    Mr. Franks. Admiral Syring, has MDA completed the inventory 
objective for both the SM-3 1B and the 2A?
    Admiral Syring. So there is not a stated inventory 
objective, but I know what the Navy is thinking it should be, 
and we are not close to that.
    Mr. Franks. When do you think this objective or this--when 
do you think we could achieve that objective?
    Admiral Syring. At the production rate of--I will just--Mr. 
Franks, I will plan for 40 to 50 a year. It will be within the 
next 4 to 5 years.
    Mr. Franks. You know, sometimes it is important for us to 
understand how much oversight MDA receives in the executive 
branch and legislative branches. Sometimes it is an enormous 
burden on you. But I would like to just ask you to detail how 
many meetings, how many RFIs [requests for information], and 
how much paperwork is involved at MDA for these oversight 
processes.
    Admiral Syring. Can I give you a qualitative answer?
    Mr. Franks. Yes, sir.
    Admiral Syring. A lot.
    Mr. Franks. A lot, yeah.
    Admiral Syring. Sir, we are under a tremendous amount of 
oversight, and answer many questions from many different 
organizations on the development of missile defense technology 
and capability.
    Mr. Franks. Well, given that it is a lot, for all of this 
work, how many recommendations did GAO [Government 
Accountability Office] have in its fiscal year 2016 report?
    Admiral Syring. There were three or four if you parse one. 
I will say four for the record.
    Mr. Franks. And how many of those were validated by DOD 
[Department of Defense]?
    Admiral Syring. We didn't agree with three of the four.
    Mr. Franks. Three of the four. So how about the fiscal year 
2015 report. I am not going to pursue this much longer.
    Admiral Syring. I don't recall any recommendations, 
specific recommendations from that report.
    Mr. Franks. So how much oversight would MDA have if we made 
the BMDS [Ballistic Missile Defense System] accountability 
report and the GAO mandate biannual and alternated when they 
were submitted? And how could the agency better focus on the 
mission if we did that?
    Admiral Syring. Sir, I want to just start by saying that, 
given the oversight responsibility, we have actually a 
constructive relationship with GAO. So I don't want to impugn 
GAO in any way. We work closely with them.
    But to answer your question directly, I think a biannual 
report would be more than sufficient in terms of their 
oversight responsibility.
    Mr. Franks. Well, let me shift gears on you here. How long 
do you think it will be before the GMD system has operational 
spares to ensure we maintain 44 GBIs at all times?
    Admiral Syring. Sir, it will be post-2020 when we have a 
Redesigned Kill Vehicle [RKV] available for procurement.
    Mr. Franks. And I know you need to pull GBIs from the 
ground for the RKV recapitalization of the CE-1 interceptors. 
Is that correct?
    Admiral Syring. That is correct, sir.
    Mr. Franks. How can we ensure that we don't fall below that 
44 GBIs emplaced in the calendar year 2018?
    Admiral Syring. Sir, in fiscal year 2018, the Department 
made a downpayment on solving that problem with $150 million to 
go towards two silos and six boosters that would--two silos 
additionally up in Fort Greely.
    And there will be a tail to that in fiscal year 2019 and 
out to complete that work. But the Department has taken steps 
to address that shortfall where if that were funded and 
supported by Congress this year, and when the Department funds 
the tail, plans will be in place to not dip below 44 for any 
length of time.
    Mr. Franks. So that means you will start buying GBIs again 
to add into our inventory when?
    Admiral Syring. We will buy boosters, sir, starting this 
year, and we will buy the silo materials starting this year as 
well.
    Mr. Franks. Well, Mr. Chairman, that is all I have. Just, 
again, thank you for your service.
    Admiral Syring. Thank you, sir.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentlelady from California, 
Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I appreciate you all being here. This is one of the--I 
have been on this subcommittee now for a few months, and so I 
haven't had a chance to work with all of you.
    I wonder if we could go back just to the GAO report for a 
second though, Admiral, because we have certainly focused on 
improving our acquisition strategies. There have been great 
concerns about that, as you well know.
    And certainly, the GAO report that recently came out 
looking at 2016 suggested that the fact that you didn't agree 
with at least three of those recommendations was, you know, 
perhaps somewhat telling, and they were looking for more 
agreement with that.
    So could you please share with us why, in fact, you weren't 
in agreement with at least three of those? And I know that they 
did overlap just to a certain extent. Could you speak to us a 
little bit about that, because, you know, we are trying to 
figure out why not implement some of those.
    A lot of them had to do more with transparency, I believe. 
And the comments that were made were, well, you know, we will 
take a look at this but--you know, it was a little bit of a 
dismissal. Help us out with that, please.
    Admiral Syring. Ma'am, let me just--the history just 
quickly is, we in the past have, up to this point, have agreed 
with most, if not all of GAO recommendations. So it is not a 
matter of we have never agreed.
    We just felt strongly, the Department felt strongly in a 
couple of different areas. One was the recommendation that the 
CAPE [Cost Assessment and Program Evaluation] approve 
acquisition strategies. The CAPE is a voting member on 
acquisition strategies to the Under Secretary of Defense for 
Acquisition, Technology, and Logistics so their vote is heard 
in that forum.
    But the acquisition strategy approval is the responsibility 
of the former Mr. Kendall position in terms of approving 
acquisition strategies for not only me but other parts of the 
Department. And we, the Department, felt that that was not in 
the CAPE's area.
    The other point, and I will just--the other example was on 
cost modeling and schedule modeling. We have a very detailed 
test schedule tool that we use to plan tests and to forecast 
tests. We also are--use a very detailed cost model to roll up 
test.
    Where I would agree with one part of their assessment is 
that there is more fidelity that could be applied specifically 
in different parts of the test. But we, I think, have done a 
tremendous job given the budgetary pressures, which has 
pressurized the test program, frankly, over the last 4 or 5 
years in replanning and conducting tests.
    I would note, ma'am, that they said that we--in fiscal year 
2016, we delivered 100 percent of the capability that was 
planned. So those are just two areas I wouldn't say of firm 
disagreement, ma'am, but we had other methods to get at where 
their recommendation was coming at.
    Mrs. Davis. So the fact that they may have said there were 
challenges in meeting the test schedule you think was perhaps--
--
    Admiral Syring. I recognize there is challenges every year 
in meeting the test schedule, and if there can be more fidelity 
applied to that process, we are certainly going to provide 
that.
    Mrs. Davis. Thank you. I appreciate that.
    And while we celebrate the tests that you shared with us, 
and I think we all really do feel good about that, I also know 
that it was somewhat under perfect conditions, if you will. You 
might want to challenge that, but I think that it was under 
better conditions than perhaps we would face under a crisis.
    And so how do we really, I think, respond to the American 
people that are looking to see whether or not the dollars that 
are being spent under these endeavors compared to what we need 
to do in real-time deployment make sense?
    Admiral Syring. Ma'am, let me, if I can, just have a point 
of discussion on that. And I will then turn it over to General 
Dickinson, who is the warfighter responsible for the actual 
execution of the test, which the soldiers did.
    We have to plan tests ahead of time. We have to announce 
tests ahead of time because of the air corridors that we go 
across. It was a 5,000-mile test, and we have got to clear the 
aircraft. We have got to clear the ships from the area. So 
there has to be a notification on when the test is going to be 
conducted.
    The scenario that we conducted was actually an exact 
replica of the scenario that this country would face if North 
Korea were to fire a ballistic missile against the United 
States. We have TPY-2 radars in Japan, we have a radar in 
Alaska, and we have a homeland defense system in Alaska as 
well.
    So what we did was move that scenario south and put a TPY-2 
on Wake Island, a Sea-based X-band Radar northwest of Hawaii, 
and shot an interceptor out of Vandenberg, which just, you 
know, 1,000 or 2,000 miles south replicated what the warfighter 
would face in real time.
    The scenario was executed by warfighters on console. And 
the way the information flowed after the launch of the target 
is exactly the same way the information would flow upon a 
launch of a North Korean ballistic missile.
    It would be detected by the overhead sensors, pass it to 
the radars in Japan, pass it to the radar in Alaska, develop 
the weapons task plan to the interceptor in Alaska to shoot an 
interceptor to defeat that threat. I would actually argue the 
scenario that we conducted was maybe more operationally 
realistic than not. We only fired----
    Mr. Rogers. The gentlelady's time has expired.
    Admiral Syring. We only fired one interceptor, and the 
warfighter in a real-world scenario would fire more than one.
    Mr. Rogers. We are going to have to try to get a classified 
briefing in before we get called for votes again. I am going to 
try to keep everybody on schedule.
    The gentleman from California, Mr. Hunter, is recognized.
    Mr. Hunter. Thank you, Mr. Chairman.
    So let's go to Hawaii. And first, I think this is the 
existential threat that America faces right now, and you are 
dealing with it. You are doing God's work. So let's talk about 
Hawaii.
    Let's see, does the program that you are talking about--you 
asked for $21 million for a new Hawaii ballistic missile 
defense radar, medium-ranged discriminating radar, or the 
equivalent by 2021? Does what you are talking about--is that 
what you are going to have there as supposed to just the SBX?
    Admiral Syring. Yes, sir.
    Mr. Hunter. Okay. Second question: Have you looked at--and 
I know other people have, so specifically MDA, have you looked 
at using SM-3 Block 2s for the North Korean missile threat?
    Admiral Syring. Yes, sir, we have done the analysis and 
looked at that extensively. We have not tested it yet.
    Mr. Hunter. Can you speak to that now or we have to wait 
until the next hearing?
    Admiral Syring. I can speak to it, sir. There is an 
inherent capability in the SM-3 2A to engage longer-range 
threats in terms of what we believe the design space is. We 
have not tested against that longer-range threat, but analysis 
indicates that that could add another layer of defense to 
Hawaii.
    Mr. Hunter. Okay. In that video, where were you shooting at 
in the U.S.? Like, where was the target?
    Admiral Syring. The target was on Meck Island in the 
Kwajalein Atoll, in the Marshall Islands, and the interceptor 
was fired from Vandenberg in L.A.
    Mr. Hunter. I was saying, where were you aiming the fake 
ICBM at in the U.S.?
    Admiral Syring. It was going towards the West Coast.
    Mr. Hunter. Towards like San Diego or Los Angeles or 
something?
    Admiral Syring. I won't say San Diego.
    Mr. Hunter. Okay. How high would it have to be for Alaska 
to pick that up and not the SBX?
    Admiral Syring. If you would have translated that scenario 
north, that scenario would have been picked up by the Alaska 
radar.
    Mr. Hunter. Like San Francisco or higher or something?
    Admiral Syring. Sir, the construct that I described 
protects the entire continental United States.
    Mr. Hunter. Gotcha. Okay. So let's go to the SBX. In 2020, 
it is going to have to go dry dock, right?
    Admiral Syring. Yes, sir.
    Mr. Hunter. So you are talking about building an actual 
radar on Kauai, right, to----
    Admiral Syring. In the State of Hawaii.
    Mr. Hunter. Okay. So not the Pacific Missile Range 
Facility?
    Admiral Syring. That is one option. We haven't decided on 
location. There is six or seven different locations we are 
looking at.
    Mr. Hunter. Does the Navy not want to do it at the Pacific 
Missile Range Facility [PMRF]?
    Admiral Syring. Sir, the Navy completely understands the 
need for the radar, and we are working closely with them on 
what operational restrictions would have to be in place at 
PMRF.
    Mr. Hunter. But you basically have to have this done by 
2020, right?
    Admiral Syring. We do.
    Mr. Hunter. Okay. So, I guess, my next question is, if you 
do it anywhere in Hawaii, the Pacific Missile Range Facility 
excluded, are you going to have to go through an environmental 
impact study [EIS]?
    Admiral Syring. Yes, potentially, yes, sir.
    Mr. Hunter. Sir, an actual environmental impact study. I am 
from California. I mean, you know, Camp Pendleton was basically 
closed down to Marine Corps assault from the ocean because of 
fairy shrimp in the sand, where they did an assault then walked 
on the hardball around the actual beach. Then they could 
proceed with their assault.
    Do you think you have the right timeframe in mind if you 
have to do an EIS?
    Admiral Syring. The timeframe with an EIS would be 
challenging.
    Mr. Hunter. Is there any way to get around doing an EIS?
    Admiral Syring. For reasons of national security.
    Mr. Hunter. And then you would do an environmental 
assessment?
    Admiral Syring. Correct.
    Mr. Hunter. And that comes from OSD [Office of Secretary of 
Defense]?
    Admiral Syring. That is correct.
    Mr. Hunter. Okay. So you could say--because of national 
security and pressing existential threat to the United States 
reasons, we can bypass that?
    Admiral Syring. That is my recollection of the options we 
have, but----
    Mr. Hunter. Do you have to use an EIS if you go on PMRF?
    Admiral Syring. Let me take that for the record, sir.
    Mr. Hunter. Okay. The answer is yes? Yes, okay. The answer 
is yes. We got it.
    Okay. Last thing is, your MILCON [military construction] 
budget request for the radar that will be in place before the 
SBX has to go in the dry dock, you have a date of 2021, yet you 
have a planned IOC date of 2023, assuming a fully installed, 
integrated, and tested system.
    The question is, how does this timeframe from initiation of 
MILCON to initial operational capability compare to, like, the 
LRDR?
    Admiral Syring. Very similar.
    Mr. Hunter. Okay. So you are happy with the timeframe of 
the SBX going away, which is what you used for this test, the 
SBX going away and you having a medium-range radar in place on 
the ground in Hawaii to take its place?
    Admiral Syring. Sir, I would just offer a little different 
perspective. SBX, in my opinion, will not go away in 2020. It 
has got to go into a dry dock and we have got to manage that 
operational risk. But the decision for SBX to go away will be 
both the NORTHCOM [Northern Command] and the PACOM [Pacific 
Command] commanders' call.
    Mr. Hunter. So you could press that off or they could press 
that off if they had to by a year or two?
    Admiral Syring. Absolutely.
    Mr. Hunter. I gotcha. Okay. Thank you. Thank you, Mr. 
Chairman. Thank you.
    Mr. Rogers. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Texas, Mr. 
O'Rourke, for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Admiral Syring, I appreciate being able to see the video. 
That was incredibly helpful to understand what we are talking 
about. Can you talk about--we obviously saw a success in the 
ICBM being destroyed. Can you talk about any concerns you have 
with the performance that you can share in this session?
    Admiral Syring. Yes, sir. This--in no way should the 
committee take away that this is the final step and we are 
stepping away declaring success. We have been on a journey over 
the last at least 5 to 6 years to improve the reliability of 
the entire system.
    Sir, as you know, the system was fielded very rapidly back 
in the early 2000s without a proper system engineering cycle or 
production engineering cycle because of what the President 
deemed--and correctly so--that some defense now is better than 
no defense.
    What was said back then was, we need to work to improve the 
system over time. And I have stated openly in this committee 
and others that I have reliability concerns with the system 
that have been systematically addressed, in large part, over 
the last, I will say, 6 years, bit by bit. It is just not the 
interceptors. It is the entire system.
    We are not there yet. We have continued work with the 
Redesigned Kill Vehicle. We have continued work with the 
reliability of the other components of the system to make it 
totally reliable to give the warfighter options on shot 
doctrine in the future. I have been very open about that, that 
we are not done yet.
    Mr. O'Rourke. Let me ask you about that. The President has 
talked about an expanded missile defense system. You have 
talked about, in response to one of the questions, that--if I 
could characterize your answer, we may be keeping pace with the 
threats, but perhaps not as quickly or as effectively as you 
would ideally like.
    What did the President mean by expanding missile defense 
systems? Is the video you showed us, does that satisfy his 
interests in expansion?
    Admiral Syring. Sir, I don't know. I have not talked to the 
President specifically about this. But I do know that the 
Ballistic Missile Defense Review that he has chartered, the 
Secretary of Defense has chartered, will look at this exact 
question in terms of not only the capability of the current 
interceptors, but the capacity question, and do we need more 
and where do we need more.
    Mr. O'Rourke. Let me ask you this question, and forgive the 
ignorance in the question. I am also new to this subcommittee. 
How good can we get at missile defense, not speaking 
technologically, but in terms of either treaty obligations or 
concerns about upsetting any balance or deterrence 
considerations that we already have?
    Admiral Syring. Sir, if I can, I will give you my 
perspective as a military officer and then I will hand it to my 
policy friend, Mr. Harvey, to expand further. But I got asked 
that question a couple weeks ago about missile defense being 
destabilizing, and my answer to that was the only thing 
provocative and destabilizing are North Korea's actions.
    Mr. O'Rourke. What about with Russia, I guess, I am 
specifically asking about?
    Admiral Syring. I will let Mr. Harvey take that.
    Mr. Harvey. So as you know, you alluded to, I mean, the 
Russians have expressed concerns about our missile defense 
capabilities. I think we have, for the past 50 years, 
recognized deterrence as sort of the basis for strategic 
stability in terms of defense of our homeland.
    In terms of defense of our forces in a regional context, I 
think to the extent that the Russians pose a threat to those 
forces, that we feel we have not just a right but an obligation 
to provide the defenses that we need to protect those forces, 
and we won't let ourselves be cowed by complaints or threats or 
accusations from the Russians.
    Mr. O'Rourke. And I am not suggesting that we should. I 
think I am just trying to get an understanding of the parameter 
of how far we can take this within current considerations. It 
may be a question for a longer conversation. Perhaps on the 
same theme, how effective are Russian missile defense systems 
comparable to ours?
    Admiral Syring. Sir, if I could take that to the classified 
session.
    Mr. O'Rourke. Okay. I will have that same question for 
other countries too.
    Admiral Syring. I will feel more comfortable.
    Mr. O'Rourke. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Alabama, Mr. Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Admiral Syring, I understand that the Missile Defense 
Agency and the DOD Director of Operational Tests and Evaluation 
both agree that a multiyear procurement of the SM-3 would make 
sense, and given common components, that adding a multiyear 
procurement of SM-6 may also make sense. Is that right or is 
that wrong?
    Admiral Syring. I agree with that assessment.
    Mr. Brooks. Why?
    Admiral Syring. One, the two interceptors are manufactured 
in the same location. There must be synergies between the two 
production lines. We have proven on the Navy side--I will speak 
for the Navy--very, very successful track record with SM-6 
testing. And its technical baseline is mature enough, it is 
absolutely supportive of a multiyear.
    The SM-3 1B will go through its final intercept testing as 
part of Formidable Shield 17 in the September, October 
timeframe. And we are confident that given that test, both the 
SM-3 and the SM-6 will be ready for the Department to certify 
multiyear procurement, at least that will be my recommendation.
    Mr. Brooks. Next question. Please describe the joint 
emergent operational needs submitted by U.S. Forces Korea, 
Commander Brooks, in February this year. I understand it has 
been endorsed by Admiral Harris at the Pacific Command. Is that 
correct or incorrect?
    Admiral Syring. That is correct, sir.
    Mr. Brooks. And what is the plan to provide this capability 
to the commander of U.S. Forces Korea? Will you or your 
successor seek a reprogramming to accomplish this effort, or 
have you included it in your budget request for fiscal year 
2018?
    Admiral Syring. Sir, it is an emerging capability. I just 
returned from Korea last night talking about the document and 
potential material solutions, and I would defer that discussion 
given the environment to the classified environment.
    Mr. Brooks. And this next question is for any witness who 
would like to pick it up. The Ground-Based Midcourse Defense 
system in Alaska and California is the missile defense system 
that protects the United States from long-range ballistic 
missile attacks.
    Should the American people have confidence in its ability 
to defend the United States?
    General Dickinson. Congressman Brooks, the American public 
should have absolute confidence in it. I have confidence in the 
soldiers that man and operate the system; I have confidence in 
the system itself; and I have got great confidence in the 
relationship we have with the material developer, Admiral 
Syring, and MDA in that regard, but absolute confidence.
    Mr. Brooks. Given that North Korea seems to also be 
advancing both their capabilities and perhaps numbers of 
missiles, do you have a judgment as to whether we will be ahead 
of the game in 2020?
    General Dickinson. I think at this point we will, given the 
current program of record--and I will defer to Admiral Syring 
to talk about it--and what the capabilities are that we are 
progressing with, I think we will likely be.
    Admiral Syring. Sir, I would answer and add that everything 
that this committee has supported over the last 4 years has 
been targeted towards a near-term, which is now part of the 
program of record and fielded set of capabilities, a midterm 
and a far-term capability, midterm defined by 2020.
    Everything that we are working on and fielding is to stay 
ahead of the threat by 2020. Today, we are ahead. We need to 
stay ahead. Where I just want to put one caveat in is on 
capacity. And certainly, the censoring and discrimination work 
that we have done to improve the capability of the system is on 
a trajectory, and, in large part, fielded.
    Where we need to be prudent and constantly vigilant on is 
what is the capacity increase that we can expect from North 
Korea and what is our capacity needed to meet that threat. And 
I can assure you, sir, as part of the BMDR, all of that 
analysis and intelligence estimates will be balanced to come up 
with a recommendation from the Department.
    Mr. Brooks. Well, it seems that we have protection with our 
facilities in Alaska and California. Do you have a judgment as 
to whether we need similar facilities or capabilities on the 
East Coast?
    Admiral Syring. Sir, that will be part of the Department's 
assessment over the next 180 days.
    Mr. Brooks. Thank you, gentlemen. Mr. Chairman, I yield 
back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Norcross, for 5 minutes.
    Mr. Norcross. Thank you, Mr. Chairman.
    And there is a couple of items I want to follow up on from 
my colleagues. The SM-3 missile, been tested considerably, but 
had a few issues not too long ago. And then I understand we got 
out of the penalty box, and it is now tested. Do you have any 
concerns about the reliability?
    Admiral Syring. No, sir, none whatsoever.
    Mr. Norcross. So if we were able to identify additional 
resources, would you support or do you need additional missiles 
and by what year?
    Admiral Syring. Sir, I will give you the answer. The 
President's budget was the best balance of resources at the 
time at the top line. But the answer to the multiyear question 
from Mr. Brooks is that my testimony is that the technical 
baseline for the SM-3 is stable and ready for multiyear 
procurement and additional procurement quantities if required.
    Mr. Norcross. So you are comfortable with the timeframe 
that has been laid out?
    Admiral Syring. Yes, sir. This will be, once again, a BMDR 
but Department decision for fiscal year 2019, but it will be my 
strong recommendation that it is ready for a multiyear 
procurement.
    Mr. Norcross. And we certainly understand what happens 
today doesn't necessarily keep us from changing tomorrow. The 
dry-docking of the SBX, my understanding, we will always have 
opportunities to extend this out. Is a 2-year timeframe 
comfortable, or can we go beyond that in the event that other 
technical issues pop up?
    Admiral Syring. Sir, we can work with the operators and the 
Military Sealift Command in terms of what risk they are willing 
to accept. And we will do underwater hull surveys and 
everything else to assess the life of, you know, basically how 
is the vessel doing.
    There can be ways to not only take risk on when that dry 
dock appears, or is conducted with periodic maintenance that 
can be done during the import periods short of a full dry dock.
    Mr. Norcross. Do you have the resources available to you to 
extend that out? Because I would rather have the extension and 
not use it.
    Admiral Syring. Sir, that would be in 2020 and beyond, and, 
certainly, well before then we will factor that into the 
President's budget request if required. It will be based on how 
the Hawaii radar is progressing, you know, the fielding of the 
Alaska radar. And I can assure you that won't be my decision. 
It will be the combatant commanders' decisions.
    Mr. Norcross. And I will reserve the rest for closed 
session. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And, Admiral Syring, I want to thank you for your service 
to our country and your great work at MDA.
    Admiral Syring. My honor.
    Mr. Lamborn. You will be missed. But thank you for what you 
have done.
    The kinetic kill test result that you showed us earlier is 
both wonderful and gratifying, and I really was happy to see 
it. Now, looking forward to the future for future progress in 
boost phase kill, I think we have to look at directed energy.
    And MDA, in the last few years, has made some modest but 
steady investments in directed energy. Now, as the missile 
threats to our country grow and as the geopolitical situation 
evolves, and there are some dangers out there, I really see 
that we need to be stepping up our directed energy investments.
    But I am dismayed when I look at this budget that we have 
been--we are cutting $50 million in this year's request for 
directed energy research and development. So how do we square 
that with the needs and threats that are out there?
    Admiral Syring. Yes, sir.
    The premise of the budget submission at the Department 
level with directed energy was to pull directed energy funding 
across the Department towards common solutions and common 
maturation of technology. That is why we saw a reduction in the 
MDA budget.
    That said, we owe the plan to not just the Department, but 
we owe the plan to the Congress on how are we going to do that 
to continue the development of directed energy. I agree with 
you 100 percent that boost phase defense and directed energy 
should be pursued vigorously and without delay. And I assure 
you, as part of the BMDR, the Department will look at directed 
energy in depth for missile defense and assess that 
recommendation.
    Mr. Lamborn. Okay. Would you appreciate this committee 
reviewing that part of the budget and scrutinizing it very 
carefully?
    Admiral Syring. Sir, as you are entitled to with 
congressional oversight, of course.
    Mr. Lamborn. Okay. Excellent.
    Now, shifting gears, what can you tell us in open hearing 
about the Iranian threat and our efforts in Europe with sensors 
and radar and interceptors to deal with that threat given the 
fact that we don't have an East Coast site as of yet?
    Admiral Syring. I would--let me be very careful here. I 
would put in perspective, first, the threat piece of Iran 
versus North Korea. There is no comparison in terms of the 
amount of testing that we have seen with North Korea, both in 
range and capability to what we have seen in Iran over the last 
6 to 8 months. It is night and day.
    So our priorities on focusing towards a North Korea threat 
have been exactly right. That said, we cannot forget about Iran 
and what they are capable of doing in terms of longer-range 
space launch vehicle technology and shorter-range missiles that 
they possess, both land-based and anti-ship ballistic missiles 
as well.
    We, as part of the BMDR, need to look both ways when we 
assess our capacity on where the capacity is located, both in 
Vandenberg and Alaska, and what a potential East Coast site 
could bring in terms of not only numbers, but battle space to 
the warfighter and shoot-assess-shoot opportunities with the 
right assessment capability to go along with it.
    Mr. Lamborn. Okay. Thank you very much. I appreciate your 
service once again. And I yield back.
    Mr. Rogers. I thank the gentleman.
    Admiral, to be clear, was it your best military judgment 
that funding be cut for fiscal year 2018 on directed energy?
    Admiral Syring. No, sir, that was not my best military 
advice.
    Mr. Rogers. Thank you.
    The Chair now recognizes the gentlelady from Hawaii, Ms. 
Hanabusa, for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Admiral Syring, I just would like to get an orientation 
here. So from the time--if you can say this in open session, 
from the time the ICBM was launched from Kwajalein, how long 
was it before the Vandenberg interceptor was launched?
    Admiral Syring. About 10 minutes.
    Ms. Hanabusa. Then can you tell me where exactly did they 
intercept? Was it like close to Hawaii? Closer to the West 
Coast? Closer to the point?
    Admiral Syring. It was about 2,000 miles west of 
California, but further to the north of Hawaii.
    Ms. Hanabusa. And when the test was done, and the 
interception took place, was it always anticipated that that 
would be the route that more than likely, I assume, that a 
missile, if launched from Korea, North Korea would take? That 
was basically the assumption made?
    Admiral Syring. Yes, ma'am, in terms of being able to 
replicate the operational architecture down on the test range, 
which we did.
    Ms. Hanabusa. Now, one of the things that also--in your 
statement, you talked about the radar, I think, homeland 
something radar--I don't know what the whole acronym was--for 
Hawaii. Now, assuming that that radar is in the 2018 NDAA and 
then appropriated accordingly, how long is it expected for that 
radar to actually be built?
    Admiral Syring. If the funding is authorized and 
appropriated, we would then immediately do the aforementioned 
site surveys and finalize a site and the aforementioned 
environmental impact study in parallel to prepare for a 
competition industry-wide for procurement of that radar.
    And to answer your question, we were counting on 2 years 
for that to happen. And the reason I was hedging on the 
environmental study is that sometimes that can take longer than 
that.
    Ms. Hanabusa. And though a lot of people assume that PMRF 
on the island of Kauai is probably the most logical place, I 
assume that there are criteria which may place it somewhere 
else, and that is why your response was as your response. I 
mean, we have eight islands, and I am assuming that you are 
looking at more than just Kauai as a site?
    Admiral Syring. We are, yes, ma'am.
    Ms. Hanabusa. The other thing is, in your statement, you 
speak to the fact that--if I can find it--that the Pacific 
architecture, the increase of defensive capability of the GBIs 
for the enhanced defense of Hawaii. Now, the GBIs are the 
ground-based interceptors. So when you say the enhanced GBIs 
for Hawaii's defense, what exactly do you mean by that?
    Admiral Syring. I am sorry for the acronyms in the 
descriptors, but we talk about the GBIs as capability 
enhancements. Roughly, the first 20 GBIs, which are the oldest 
GBIs, are referred to as Capability Enhancement I's; Capability 
Enhancement-II's were, for simplicity sake, comprised the next 
10; and then Capability Enhancement-II Block 1 comprised the 
balance of the 44.
    So the Capability Enhancement-II Block 1, which was tested, 
is the very latest GBI configuration which will be fielded 
before the end of the year.
    Ms. Hanabusa. If I recall the testimony correctly though, 
the 44 is Alaska and Vandenberg.
    Admiral Syring. That is correct.
    Ms. Hanabusa. That is correct, right?
    Admiral Syring. Yes, ma'am.
    Ms. Hanabusa. So when you talk about the capability of GBIs 
for enhanced defense of Hawaii, you are talking about Hawaii 
being defended from those locations?
    Admiral Syring. From Alaska, yes, ma'am.
    Ms. Hanabusa. And I think that is one of the things that 
people don't seem to realize is that some people are under the 
impression--and if you can respond, I would appreciate it--that 
somehow Kauai is the best vantage point to really protect the 
Hawaiian Islands. But in actuality, it is my understanding that 
it may not be the best location, that it is either north of 
Kauai or some other location like Alaska or Vandenberg, maybe, 
that would be the better location because of where an ICBM 
would track. Would that be correct?
    Admiral Syring. Yes, ma'am, for GBIs at Alaska that would 
not be a--that would certainly not be a recommendation of mine. 
I mean, GBIs in Hawaii would not be a recommendation of mine. 
Now, the defense that we get from Alaska in a orthogonal, or a 
crossing trajectory, is very good in defending Hawaii today.
    Ms. Hanabusa. Thank you. Thank you very much. Mr. Chair, I 
yield back.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the gentlelady from Wyoming, Ms. 
Cheney, for 5 minutes.
    Ms. Cheney. Thank you very much, Mr. Chairman. And thank 
you as well to all of our witnesses for your service and for 
being here today.
    Admiral Syring, there has been some conversations and 
discussion about strategic stability, which is a crucial issue. 
But I think it is important to note that it is not the United 
States that is violating arms control treaties or talking about 
escalate to win. That is Russia.
    And isn't it also the case that we are not building missile 
defenses to counter Russia's strategic or theater nuclear 
capabilities?
    Admiral Syring. That is correct, ma'am.
    Ms. Cheney. But isn't Russia, in fact, doing that to us 
basically? Russia--isn't it, in fact, the case that Russia has 
got several dozen nuclear-armed interceptors in their missile 
defense portfolio----
    Admiral Syring. Yes, ma'am.
    Ms. Cheney [continuing]. That are particularly aimed at 
attempting to defeat, you know, any potential U.S. nuclear 
attack?
    Admiral Syring. I can answer that in the classified 
session, yes, ma'am.
    Ms. Cheney. All right. And hasn't China also been 
developing ballistic missile defenses with an intent to counter 
our offensive weapons?
    Admiral Syring. There have been developments in that area.
    Ms. Cheney. And so when we hear China and Russia talk about 
the United States upsetting strategic stability, isn't that, in 
fact, somewhat hypocritical?
    Admiral Syring. In my opinion, yes.
    Ms. Cheney. And then a question for all of the witnesses. 
At a May hearing of the Senate Intelligence Committee, when 
asked whether Russia is using active measures to undermine U.S. 
nuclear modernization and missile defense efforts, the Director 
of Central Intelligence stated on the public record, ``Yes, 
they are.''
    So I would like to ask all of the witnesses on the record, 
do you agree with this assessment? And start with you, Mr. 
Pike.
    Mr. Pike. I don't know that I have any firsthand knowledge 
of that, ma'am.
    General Dickinson. Ma'am, I have not seen that or have 
firsthand knowledge of it.
    Admiral Syring. Ma'am, me neither at this point. I can't 
comment.
    Ms. Cheney. Okay. Thank you.
    Mr. Harvey. I share the position of the other panel 
members.
    Ms. Cheney. All right. In the event that the Director of 
Central Intelligence is accurate and is correct in his 
assessment, wouldn't it be the case that you would agree this 
is not something that we could let stand, that we can't allow 
the Russians to undermine our defense programs?
    Mr. Harvey. Absolutely.
    Admiral Syring. Yes, ma'am.
    General Dickinson. Yes.
    Mr. Pike. Concur.
    Ms. Cheney. Thank you. Thank you very much. Mr. Chairman, I 
yield back.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    One question I have is that this successful test that we 
just did, in your view--and whoever would like to answer this--
what impact do you think it has on the North Korean regime in 
terms of the development of their program? Does it send them a 
clear signal about the intent of the U.S., United States, in 
order to defeat their capability?
    Mr. Harvey. I don't think we can rely on sort of the 
rational reaction of Kim Jong-un, the North Korean regime. That 
is why, I think, we need to continue to make improvements to 
our GMD system so that we can provide protection and not give 
him or his regime an opening to exploit weakness and use that 
to his advantage.
    Admiral Syring. I would just add that I think it validates 
that, if called upon, the warfighter called upon to operate the 
system in a real-world scenario, that I have confidence that 
they would do that entirely. And what message it sends to North 
Korea, I have no idea, but I know what message it sends to the 
American people, in that we can defend them 24 hours a day, 7 
days a week.
    General Dickinson. I agree with that statement in terms of 
the demonstration that we have the warfighters that are 
prepared and trained to do that 24/7/365. And I can't speak for 
what his reaction would be, but it clearly does demonstrate 
that we have the capability.
    Mr. Coffman. In this open session, can you say anything 
about the work that we are doing with Israel in terms of 
missile defense? I think that there is some talk about doing a 
joint test on the Arrow system.
    Admiral Syring. Yes, sir. We are close partners with Israel 
on development of their systems, system engineering in 
particular, and testing support also.
    And I have been intimately involved with them on David's 
Sling and Arrow, the more recent version of Arrow 3. And, 
frankly, that interceptor is now up into the exoatmosphere, and 
it has significant range constraints within the Mediterranean.
    And one of the better places to test is in Alaska, from 
Kodiak, and we plan to do that next year.
    Mr. Coffman. Okay. So the Arrow 3 is designed to defeat the 
over-the-horizon capability of the Iranians. Am I correct in 
that?
    Admiral Syring. Sir, it is designed to defeat the 
exoatmospheric ballistic missile threat from Iran.
    Mr. Coffman. Okay. And where are we at in terms of the 
deployment of that system?
    Admiral Syring. It is in testing, and I don't have the 
specific IOC thinking from the Israelis, but I can get that to 
you for the record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Coffman. Okay. Thank you. Can you basically state what 
China's concern is with the deployment of the THAAD system in 
South Korea?
    Admiral Syring. Sir, I would like to, if I can----
    Mr. Coffman. Sure.
    Admiral Syring [continuing]. Relay that to my policy peer.
    Mr. Coffman. Mr. Harvey.
    Mr. Harvey. I think they have expressed a concern about the 
ability of the radar system to track any missiles that might be 
launched from China, and what that says or what that exposes in 
terms of vulnerability to their systems. So I think that is a 
concern.
    Mr. Coffman. Thank you. Thank you, Mr. Chairman. I yield 
back
    Mr. Rogers. I thank the gentleman. Before we move to the 
classified portion, I want to touch one topic.
    Admiral Syring, can you explain why we are building Aegis 
Ashore sites in Poland and Romania that do not meet the same 
requirements for housing of our sailors? As you know, because I 
met you at the Poland site when I led a CODEL [congressional 
delegation] a couple months ago, in the Polish site, which is 
coming out of the ground, sailors would be housed four to a 
room; whereas, on the Romanian site, which we have just 
completed, it is two to a room. And by the way, that site 
turned out wonderfully. It really is first-class.
    Who made this decision and why?
    Admiral Syring. Sir, the timeline that I understand is the 
former CNO [Chief of Naval Operations] directed that the site 
be fully capable but austere in its construction and nature for 
housing. And they didn't have a definition of austere at the 
time when the budget was submitted for Romania.
    The unified facilities code from DOD grappled with what is 
the definition of austere and came out with that guidance in 
2013, which formed the basis for the Poland military 
construction request.
    It is not a satisfying answer, but that is the timeline.
    Mr. Rogers. Well, does this make sense to you? And what 
does it mean for morale, given that we are going to save less 
than 2 percent of the cost on this side at the Poland 
construction?
    Admiral Syring. From the Navy standpoint, I can't speak to 
that, but certainly the message is being sent to the sailors in 
Poland versus the sailors in Romania that it is different.
    Mr. Rogers. And it is inexplicable and indefensible.
    With that, we will recess and go into a classified setting 
now.
    [Whereupon, at 4:00 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================


                            A P P E N D I X

                              June 7, 2017
 
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 7, 2017

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
   
                               [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
